BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
Nos. 20A53, 20A54
JOSEPH

B. SCARNATI, III, ET AL., Applicants,
V.

KATHY BOOCKVAR, SECRETARY OF PENNSYLVANIA,
ET AL., Respondents.

REPUBLICAN PARTY OF PENNSYLVANIA, Applicant,
V.

KATHY BOOCKVAR, SECRETARY OF PENNSYLVANIA,
ET AL., Respondents.

As required by Supreme Court Rule 33. l(h), I
certify that the Motion for Leave to File and Amicus
Brief of Christian Family Coalition (CFC) Florida, Inc.
in Support of Application for Stay Depending
Disposition contain 361 words and 1,279 words,
respectively, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

JOHN D. GALLAGHER
Notary Public, State of Ofllo

My Commission Exprras
February 14, 2023

